BECKER GALLAGHER
Briefs

and

Supreme Court of the United States
United States Courts of Appeals

Records

CERTIFICATE OF SERVICE
I, DonnaJ. Wolf, hereby certify that 1 unbound and
1 copy of the foregoing Reply Brief for Petitioners in
19-1255, Renee Baker, Warden, et al. v. Jeff N. Rose,
were sent via Next Day Service to the U.S. Supreme
Court, and e-mail to the following parties listed below,
this 14th day of July, 2020:
Amelia Bizzaro
Ryan Norwood
Federal Public Defender's Office Las Vegas
411 E. Bonneville Avenue, Suite 250
Las Vegas, NV 89101
(702) 388-6577
Amelia_Bizzaro@fd.org
Ryan_Norwood@fd.org

Counsel for Respondent
Aaron D. Ford
Heidi Parry Stern
Counsel of Record
Jeffrey M. Conner
Charles Finlayson
100 North Carson Street
Carson City, NV 89701
(775) 684-1100
HStern@ag.nv.gov

Counsel for Petitioners

BECKER GALLAGHER LEGAL PUBLISHING INCORPORATED

(800) 890.5001
www.beckergallagher.com

8790 Governor's Hill Drive
Suite 102
Cincinnati, Ohio 45249

Franklin Square
1300 I Street, NW, Suite 400E
Washington, DC 20005

All parties required to be served have been served.
I further declare under penalty of perjury that the
foregoing is true and correct. This Certificate is
executed on July 14, 2020.

Becker Gallagher Legal Pu · hing, Inc.
8790 Governor's Hill Drive, Suite 102
Cincinnati, OH 45249
(800) 890-5001
Subscribed and sworn to before me by the said
Affi.ant on the date below designated.
Date:

d
di(~

Notary Public
[seal]

